                                                                             KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I july 21, 2010            1




KEY OVERSIGHT REPORTS AND TESTIMONIES
This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See prior SIGTARP
quarterly reports for lists of prior oversight reports and testimonies.			


U.S. DEPARTMENT OF THE TREASURY (Treasury)
ROLES AND MISSION
The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
institutions.
OVERSIGHT REPORTS
Treasury, Transactions Report, 4/1/2010 -- 6/30/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 6/21/2010 (released weekly).
Treasury, Section 105(a) Report, 4/10/2010 -- 6/11/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed 6/21/2010.
Treasury, “PPIP External Report - March 31, 2010,” 4/20/2010, http://financialstability.gov/docs/External%20Report%20-%2003-10%20Final.pdf,
accessed 6/21/2010.
Treasury, “Summary Response to GAO Report Recommendations,” 4/6/2010, http://financialstability.gov/docs/Final%20TALF%20GAO%20summary%20
response--040610.pdf, accessed 6/21/2010.
Treasury, “Treasury Secretary Geithner to Congress with an Update on EESA,” 4/23/2010, http://financialstability.gov/docs/EESA%20Update%20-%20
TFG%20to%20Congress%20042310.pdf, accessed 6/21/2010.
Treasury, “Home Affordable Modification Program System of Records Notice,” 5/20/2010, http://financialstability.gov/docs/Home+Affordable+
Modification+Program_SORN.pdf, accessed 6/21/2010.
Treasury, “Executive Compensation Information Privacy Impact Assessment,” 5/20/2010, http://financialstability.gov/docs/Executive+Compensation+Inf
ormation+System_PIA.pdf, accessed 6/21/2010.
Treasury, “Executive Compensation Information System of Records Notice,” 5/20/2010, http://financialstability.gov/docs/Executive+Compensation+Inf
ormation_SORN.pdf, accessed 6/21/2010.
Treasury, “Methodology to Calculated Estimated TARP Cost,” 5/21/2010, http://financialstability.gov/docs/Methodology%20to%20Calculate%20
Estimated%20TARP%20Cost_FINAL.pdf, accessed 6/21/2010.
Treasury, “Troubled Asset Relief Program (TARP) Investments as of March 31, 2010,” 5/21/2010, http://financialstability.gov/docs/TARP%20Cost%20
Estimates%20-%20March%2031%202010.pdf, accessed 6/21/2010.
RECORDED TESTIMONY
Treasury, “Wolin Remarks before the Council of Institutional Investors,” 4/12/2010, http://financialstability.gov/latest/tg_04122010.html, accessed
6/21/2010.
Treasury, “Michael S. Barr Remarks to the Mortgage Bankers Association,” 4/13/2010, http://financialstability.gov/latest/tg_04132010b.html,
accessed 6/21/2010.
Treasury, “Geithner Written Testimony before the House Financial Services Committee,” 4/20/2010, http://financialstability.gov/latest/tg_04202010.
html, accessed 6/21/2010.
Treasury, “Assistant Secretary Herb Allison Testimony Before the House Subcommittee on Financial Services,” 4/22/2010, http://financialstability.gov/
latest/tg_04222010.html, accessed 6/21/2010.
Treasury, “Deputy Secretary Neal S. Wolin Remarks at the International Swaps and Derivatives Association 25th Annual Meeting As Prepared for Delivery,”
4/22/2010, http://financialstability.gov/latest/tg_04222010b.html, accessed 6/21/2010.
Treasury, “Assistant Secretary for Financial Institutions Michael S. Barr Remarks to the Independent Community Bankers of America,” 4/26/2010,
http://financialstability.gov/latest/tg_04262010b.html, accessed 6/21/2010.
Treasury, “Secretary of the Treasury Timothy F. Geithner Written Testimony Senate Committee on Finance,” 5/4/2010, http://financialstability.gov/latest/
tg_05042010.html, accessed 6/21/2010.
Treasury, “Secretary Timothy F. Geithner Testimony Before the Financial Crisis Inquiry Commission Causes of the Financial Crisis and the Case for Reform
May 6, 2010,” 5/6/2010, http://financialstability.gov/latest/pr_05062010.html, accessed 6/21/2010.
2            Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I july 21, 2010




    FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
    ROLES AND MISSION
    FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
    • policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
      classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
    • the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers.
    In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any
      suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
    OVERSIGHT REPORTS
    Financial Stability Oversight Board, “Financial Stability Oversight Board Quarterly Report to Congress,” 3/31/2010, www.financialstability.gov/docs/
    FSOB/FINSOB%20Quarterly%20Report%20033110.pdf, accessed 6/21/2010.
    RECORDED TESTIMONY
    None


    SECURITIES AND EXCHANGE COMMISSION (SEC)
    ROLES AND MISSION
    SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
    While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive
    actions to address the extraordinary challenges caused by the current credit crisis:
    • aggressively combating fraud and market manipulation through enforcement actions
    • taking swift action to stabilize financial markets
    • enhancing transparency in financial disclosure.
    OVERSIGHT REPORTS
    None
    RECORDED TESTIMONY
    SEC, “Testimony Before the Subcommittee on Financial Services and General Government Committee on Appropriations, U.S. House of Representatives,”
    Chairman Mary L. Schapiro, 3/17/2010, http://sec.gov/news/testimony/2010/ts031710mls.htm, accessed 6/22/2010.
    SEC, “Testimony Concerning the Lehman Brothers Examiner’s Report, Before the Financial Services Committee, U.S. House of Representatives,”
    Chairman Mary L. Schapiro, 4/20/2010, http://sec.gov/news/testimony/2010/ts042010mls.htm, accessed 6/22/2010.
    SEC, “Testimony before the Subcommittee on Financial Services and General Government, Committee on Appropriations, U.S. Senate,” Chairman Mary
    L. Schapiro, 4/28/2010, http://sec.gov/news/testimony/2010/ts042810mls.htm, accessed 6/22/2010.
    SEC, “Testimony Concerning the Severe Market Disruption on May 6, 2010, before the Financial Services Subcommittee on Capital Markets, Insurance
    and Government Sponsored Enterprises of the U.S. House of Representatives,” Chairman Mary L. Schapiro, 5/11/2010, http://sec.gov/news/
    testimony/2010/ts051110mls.htm, accessed 6/22/2010.
    SEC, “Examining the Causes and Lessons of the May 6th Market Plunge, before the Subcommittee on Securities, Insurance, and Investment of
    the United States Senate Committee on Banking, Housing, and Urban Affairs,” Chairman Mary L. Schapiro, 5/20/2010, http://sec.gov/news/
    testimony/2010/ts052010mls.htm, accessed 6/22/2010.
    SEC, “Testimony Concerning Accounting and Auditing Standards: Pending Proposals and Emerging Issues, Before the Subcommittee on Capital Markets,
    Insurance, and Government Sponsored Enterprises of the House Committee on Financial Services,” Chairman Mary L. Schapiro, 5/21/2010, http://sec.
    gov/news/testimony/2010/ts052110jlk.htm, accessed 6/22/2010.
                                                                              KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I july 21, 2010         3




GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION
GAO is tasked with performing ongoing oversight of TARP’s performance, including:
• evaluating the characteristics of asset purchases and the disposition of assets acquired
• assessing TARP’s efficiency in using the funds
• evaluating compliance with applicable laws and regulations
• assessing the efficiency of contracting procedures
• auditing TARP’s annual financial statements and internal controls
• submitting reports to Congress at least every 60 days
OVERSIGHT REPORTS
GAO, "U.S. Government Financial Statements, Fiscal Year 2009 Audit Highlights Financial Management Challenges and Unsustainable Long-Term Fiscal
Path," 4/14/2010, www.gao.gov/new.items/d10483t.pdf, accessed 6/22/2010.
GAO, "Troubled Asset Relief Program: Update of Government Assistance Provided to AIG," 4/27/2010, www.gao.gov/new.items/d10475.pdf, accessed
6/22/2010.
GAO, “Debt Management: Treasury Was Able to Fund Economic Stabilization and Recovery Expenditures in a Short Period of Time, but Debt Management
Challenges Remain,” 5/18/2010, www.gao.gov/new.items/d10498.pdf, accessed 6/22/2010.
GAO, “Troubled Asset Relief Program: Further Actions Needed to Fully and Equitably Implement Foreclosure Mitigation Programs,” 6/24/2010,
www.gao.gov/new.items/d10634.pdf, accessed 6/30/2010.
GAO, “Troubled Asset Relief Program: Treasury’s Framework for Deciding to Extend TARP Was Sufficient, but Could be Strengthened for Future
Decisions,” 6/30/2010, www.gao.gov/new.items/d10531.pdf, accessed 6/30/2010.
RECORDED TESTIMONY
GAO, “Financial Markets Regulation: Financial Crisis Highlights Need to Improve Oversight of Leverage at Financial Institutions and across System,”
Statement of Orice Williams Brown, Director Financial Markets and Community Investment, 5/6/2010, www.gao.gov/new.items/d10555t.pdf, accessed
6/22/2010.


Congressional oversight panel (cop)
ROLES AND MISSION
COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP
is required to produce the following reports to Congress:
• regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial
  markets/financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximiza-
  tion of benefits for taxpayers
• a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its effec-
  tiveness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for improve-
  ment regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to the
  regulatory system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
OVERSIGHT REPORTS
COP, “Evaluating Progress of TARP Foreclosure Mitigation Programs,” 4/14/2010, http://cop.senate.gov/reports/library/report-041410-cop.cfm,
accessed 6/22/2010.
COP, “The Small Business Credit Crunch and the Impact of the TARP,” 5/13/2010, http://cop.senate.gov/reports/library/report-051310-cop.cfm,
accessed 6/22/2010.
COP, “The AIG Rescue, Its Impact on Markets, and the Government’s Exit Strategy,” 6/10/2010, http://cop.senate.gov/reports/library/report-
061010-cop.cfm, accessed 6/22/2010.
RECORDED TESTIMONY
COP, “Phoenix Field Hearing on Small Business Lending,” 4/27/2010, http://cop.senate.gov/hearings/library/hearing-042710-phoenix.cfm,
accessed 6/22/2010.
COP, “Holding Banks Accountable: Are Treasury and Banks Doing Enough to Help Families Save Their Homes?” Statement of Richard H. Neiman,
Member, Congressional Oversight Panel, before the Senate Appropriations Subcommittee on Financial Services, 4/29/2010, http://cop.senate.gov/
documents/testimony-042910-neiman.pdf, accessed 6/22/2010.
4            Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I july 21, 2010




    Congressional oversight panel (cop)
    COP, “TARP Oversight: An Update on Warrant Repurchases and Benefits to Taxpayers,” Statement of Paul Atkins, Member, Congressional Oversight
    Panel, before the House Financial Services Committee Subcommittee on Oversight and Investigations, 5/11/2010, http://cop.senate.gov/
    documents/testimony-051110-atkins.pdf, accessed 6/22/2010.
    COP, “Initiatives to Promote Small Business Lending, Jobs and Economic Growth,” Statement of Paul Atkins, Member, Congressional Oversight
    Panel, before the House Financial Services Committee, 5/18/2010, http://cop.senate.gov/documents/testimony-051810-atkins.pdf, accessed
    6/22/2010.
    COP, “COP Hearing on TARP and Other Assistance to AIG,” 5/26/2010, http://cop.senate.gov/hearings/library/hearing-052610-aig.cfm, accessed
    6/22/2010.
    COP, “COP Hearing with Treasury Secretary Timothy Geithner,” 6/22/2010, http://cop.senate.gov/hearings/library/hearing-062210-geithner.cfm,
    accessed 4/5/2010.


    OFFICE OF MANAGEMENT AND BUDGET (OMB)
    ROLES AND MISSION
    OMB’s predominant mission is to assist the President in overseeing the preparation of the federal budget and to supervise its administration in Ex-
    ecutive Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and
    procedures, assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony,
    and proposed legislation are consistent with the President’s Budget and with Administration policies.

    In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of
    these areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and
    to reduce any unnecessary burdens on the public.
    OVERSIGHT REPORTS
    None
    RECORDED TESTIMONY
    None


    CONGRESSIONAL BUDGET OFFICE (CBO)
    ROLES AND MISSION
    CBO’s mandate is to provide the Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array
    of programs covered by the Federal budget, and the information and estimates required for the Congressional budget process.

    CBO assists the House and Senate Budget Committees, and the Congress more generally, by preparing reports and analyses. In accordance with the
    CBO’s mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
    OVERSIGHT REPORTS
    CBO, “The Budgetary Impact and Subsidy Costs of the Federal Reserve’s Actions During the Finance Crisis,” May 2010, http://cbo.gov/ftpdocs/115xx/
    doc11524/05-24-FederalReserve.pdf, accessed on 6/22/2010.
    RECORDED TESTIMONY
    None


    FEDERAL RESERVE BOARD (Federal Reserve)
    ROLES AND MISSION
    Federal Reserve’s duties fall into four general areas:
    • conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
      prices, and moderate long-term interest rates
    • supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the
      credit rights of consumers
    • maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
    • providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating
      the nation’s payments system
                                                                             KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I july 21, 2010            5




FEDERAL RESERVE BOARD (Federal Reserve)
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
Federal Reserve, “Economic outlook,” Chairman Ben S. Bernanke, Before the Joint Economic Committee, Washington, D.C., 4/14/2010, http://
federalreserve.gov/newsevents/testimony/bernanke20100414a.htm, accessed 6/22/2010.
Federal Reserve, “Lessons from the failure of Lehman Brothers,” Chairman Ben S. Bernanke, Before the Committee on Financial Services, U.S. House of
Representatives, Washington, D.C., 4/20/2010, http://federalreserve.gov/newsevents/testimony/bernanke20100420a.htm, accessed 6/22/2010.
Federal Reserve, “Government assistance to AIG,” Scott G. Alvarez, General Counsel, Before the Congressional Oversight Panel, U.S. Congress,
5/26/2010, http://federalreserve.gov/newsevents/testimony/alvarez20100526a.htm, accessed 6/22/2010.
Federal Reserve, “Economic and financial conditions and the federal budget,” Chairman Ben S. Bernanke, Before the Committee on Financial Services,
U.S. House of Representatives, Washington, D.C., 6/9/2010, http://federalreserve.gov/newsevents/testimony/bernanke20100609a.htm, accessed
6/22/2010.


FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
ROLES AND MISSION
The FDIC is an independent agency created by Congress to maintain stability and public confidence in the nation’s financial system by insuring deposits,
examining and supervising financial institutions, and managing receiverships.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
FDIC, “Examining the Role of Regulators in the Supervision of Washington Mutual Bank 2004-2008,” Statement of Federal Deposit Insurance Corporation,
Before the Permanent Subcommittee on Investigations, Committee on Homeland Security and Governmental Affairs, U.S. Senate, 4/16/2010, http://
fdic.gov/news/news/speeches/chairman/spapr1610.html, accessed 6/22/2010.


FEDERAL DEPOSIT INSURANCE CORPORATION office of the inspector general (FDIC OIG)
ROLES AND MISSION
The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud,
waste, and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.
OVERSIGHT REPORTS
FDIC OIG, “Material Loss Review of Colonial Bank, Montgomery, Alabama,” 4/9/2010, www.fdicig.gov/reports10/10-031.pdf, accessed 07/09/2010.
RECORDED TESTIMONY
FDIC OIG, “Hearing on the Role of Regulators in Exercising Their Supervision of Washington Mutual Bank from 2004 - 2008,” Statement of John T. Rymer,
Inspector General, Federal Deposit Insurance Corporation, Before the Permanent Subcommittee on Investigations, Committee on Homeland Security and
Governmental Affairs, U.S. Senate, 4/16/2010, www.fdicoig.gov/Testimony/FDIC%20IG%20Statement-WaMu-4-16-10.pdf, accessed 6/22/2010.
6                Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I july 21, 2010




     SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
     ROLES AND MISSION
     Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
     the purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”).

     SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
     coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
     OVERSIGHT REPORTS
     SIGTARP, Quarterly Report to Congress, 4/20/2010, http://sigtarp.gov/reports/congress/2010/April2010_Quarterly_Report_to_Congress.pdf,
     accessed 6/22/2010.
     SIGTARP, “Assessing Treasury’s Process to Sell Warrants Received From TARP Recipients,” 5/11/2010, http://sigtarp.gov/reports/audit/2010/
     Assessing%20Treasury’s%20Process%20to%20Sell%20Warrants%20Received%20From%20TARP%20Recipients_May_11_2010.pdf, accessed
     6/22/2010.
     SIGTARP, “Treasury’s Monitoring of Compliance with TARP Requirements by Companies Receiving Exceptional Assistance,” 6/29/2010, http://sigtarp.
     gov/reports/audit/2010/Treasury’s%20Monitoring%20of%20Compliance%20with%20TARP%20Requirements%20by%20Companies%20Receiving%20
     Exceptional%20Assistance%206_29_10.pdf, accessed 7/19/2010.
     RECORDED TESTIMONY
     SIGTARP, Statement of Neil Barofsky, Special Inspector General for the Troubled Asset Relief Program, Before the Senate Committee on Finance,
     4/20/2010, http://www.sigtarp.gov/reports/testimony/2010/Testimony%20Before%20the%20Senate%20Committee%20on%20Finance%204_20_10.
     pdf, accessed on 7/19/2010.
     SIGTARP, Statement of Neil Barofsky, Special Inspector General for the Troubled Asset Relief Program, Before the House Committee on Appropriations
     Subcommittee on Financial Services and General Government, 4/22/2010, http://sigtarp.gov/reports/testimony/2010/Testimony%20Before%20
     the%20House%20Committee%20on%20Appropriations%20Subcommittee%20on%20Financial%20Services%20and%20General%20Government_4_22_2-
     010.pdf, accessed on 6/22/2010.
     SIGTARP, Statement of Kevin R. Puvalowski, Deputy Special Inspector General for the Troubled Asset Relief Program, Before the Senate Committee on
     Appropriations Subcommittee on Financial Services and General Government , 4/29/2010, http://sigtarp.gov/reports/testimony/2010/Testimony%20
     Before%20the%20Senate%20Committee%20on%20Appropriations%20Subcommittee%20on%20Financial%20Services%20and%20General%20
     Government%204_29_10%20Final.pdf, accessed on 6/22/2010.
     SIGTARP, Statement of Kevin R. Puvalowski, Deputy Special Inspector General for the Troubled Asset Relief Program, Before the House Committee on
     Financial Services Subcommittee on Oversight and Investigations, 5/11/2010, http://sigtarp.gov/reports/testimony/2010/Testimony%20Before%20
     the%20House%20Committee%20on%20Financial%20Services%20Subcommittee%20on%20Oversight%20and%20Investigations%205_11_10%20.pdf,
     accessed on 6/22/2010.
    Note: Italics style indicates verbatim narrative taken from source documents.

    Sources: Treasury, www.treas.gov, accessed 7/6/2010; Treasury Inspector General, www.treas.gov, accessed 7/6/2010; Financial Stability Oversight Board, www.treas.gov, accessed 7/6/2010; SEC,
    www.sec.gov, accessed 7/6/2010; GAO, www.gao.gov, accessed 7/6/2010; COP, www.cop.senate.gov, accessed 7/6/2010; OMB, www.whitehouse.gov, accessed 7/6/2010; CBO, www.cbo.gov,
    accessed 7/6/2010; Federal Reserve Board, www.federalreserve.gov, accessed 7/6/2010; FDIC, www.fdic.gov, accessed 7/6/2010; FDIC OIG, www.fdicoig.gov, accessed 7/6/2010; SIGTARP, www.
    sigtarp.gov, accessed 7/6/2010; FDIC, response to SIGTARP data call, 7/7/2010; GAO, Response to SIGTARP data call,7/7/2010, Treasury, Response to SIGTARP data call, 7/7/2010.	
    		
    		
    		
    		
